 U.S. Department of the Interior
 Office of Inspector General

                               Audit Report

                     Loan Programs
Guam Economic Development Authority
               Government of Guam




                              Report No. 01-I-417
                              September 2001
                                                                    N-IN-GUA-006-99-(A)-M


              United States Department of the Interior
                              OFFICE OF INSPECTOR GENERAL
                                      Pacific Field Office
                                    415 Chalan San Antonio
                                   Baltej Pavilion, Suite 306
                                   Tamuning, Guam 96911

                                     September 21, 2001

Mr. Chris Murphy
Chairman, Board of Directors
Guam Economic Development Authority
ITC Building, Suite 511
590 South Marine Drive
Tamuning, Guam 96911

Subject:    Audit Report on Loan Programs, Guam Economic Development Authority,
            Government of Guam (Report No. 01-I-417)

Dear Mr. Murphy:

      This report presents the results of our audit of loan programs at the Guam Economic
Development Authority.

       Please provide a response to this report by October 22, 2001. The response should
provide the information requested in Appendix 6 and should be addressed to our Pacific
Field Office, 415 Chalan San Antonio, Baltej Pavilion - Suite 306, Tamuning, Guam
96911.

      Section 5(a) of the Inspector General Act (5 U.S.C. app. 3) requires the Office of
Inspector General to list this report in its semiannual report to the U.S. Congress. In addition,
the Office of Inspector General provides audit reports to the Congress.

                                                Sincerely,


                                                Arnold E. van Beverhoudt, Jr.
                                                Audit Manager for Insular Areas


cc: Honorable Carl T.C. Gutierrez, Governor of Guam
U.S. Department of the Interior                                    Office of Inspector General

                              EXECUTIVE SUMMARY

                                   Loan Programs,
                         Guam Economic Development Authority,
                                Government of Guam
                                 Report No. 01-I-417
                                  September 2001

The Guam Economic Development Authority was established in August 1965 to assist in the
implementation of an integrated program for the economic development of Guam. The Authority
administered five business loan programs that, as of September 30, 1999, had a total of 155
outstanding loans totaling more than $13 million in principal, interest, and fees/charges. The two
larger loan programs were the Guam Development Fund, with 87 outstanding loans totaling
$11.7 million, and the Agriculture Development Fund, with 39 outstanding loans totaling
$1.1 million.

The objective of our audit was to determine whether the Authority (1) effectively administered the
loan programs and (2) achieved the objectives for which the programs were established. The
scope of the audit include a review of loans issued by the Guam Development Fund and the
Agriculture Development Fund during fiscal years 1986 through 1999.

We found that there was a need for improvements in the Authority’s loan program operations,
lending practices, and collection enforcement practices. Specifically, the Authority:

9     Used $1.34 million from the Guam Development Loan Program to cover the bad debt cost
      of writing off uncollectible loans and transferred profits of $1.33 million from the sale of
      property recovered on a delinquent loan to its own operating fund. These actions were
      contrary to legislation establishing the Loan Program and the approved Program Plan.

9     Lost Loan Program funds estimated at $453,653 and placed additional Loan Program funds
      of about $3.6 million at risk of loss because it made loans from the Development Loan
      Program to a wholly owned subsidiary corporation and to businesses that had existing
      delinquent Program loans or Authority leases. Furthermore, because an arm’s-length
      relationship did not exist between the Authority and its subsidiary, the normal checks and
      balances inherent in making loans to unrelated borrowers did not exist.

9     May have lost $2.3 million in delinquent loans and placed another $2.2 million in delinquent
      loans at risk of loss and lost at least $303,697 and placed another $784,000 at risk because
      of the declining value of foreclosed real property and because the Authority did not
      effectively approve loans and collect delinquent loans. The Authority did not (1) require that
      problem borrowers be referred for management assistance, (2) ensure that its attorneys took
      timely action to protect the Authority’s interests in loan collateral, and (3) sell repossessed
      real property in a timely manner.

We made 10 recommendations to the Chairman of the Authority’s Board of Directors to stop
charging losses related to delinquent loans to the Development Loan Program and develop
alternative methods of safeguarding itself against losses from delinquent loans, institute
organizational and procedural changes to ensure that an arm’s-length relationship exists between
the Authority and its wholly owned subsidiary with regard to lending practices, and implement
procedures to improve the effectiveness of loan collection practices.

AUDITEE COMMENTS AND OFFICE OF INSPECTOR GENERAL EVALUATION

The Authority concurred with 2 of the report’s 10 recommendations and expressed
nonconcurrence with the other 8 recommendations. Based on the response, we considered eight
recommendations unresolved and requested additional information for two recommendations.




                                                 2
                                                CONTENTS
                                                                                                                     Page

INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

        BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
        OBJECTIVE AND SCOPE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
        PRIOR AUDIT COVERAGE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

FINDINGS AND RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8

        A. LOAN PROGRAM OPERATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
        B. LENDING PRACTICES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
        C. COLLECTION ENFORCEMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21

APPENDICES

        1. CLASSIFICATION OF MONETARY AMOUNTS . . . . . . . . . . . . . . . . . . . . 30
        2. GUAM ECONOMIC DEVELOPMENT AUTHORITY OUTSTANDING
           LOANS BY FUNDING SOURCES AS OF SEPTEMBER 30, 1999 . . . . . . . 31
        3. GUAM BUSINESS DEVELOPMENT CORPORATION’S LEGAL
           STRUCTURE AS OF DECEMBER 31, 1999 . . . . . . . . . . . . . . . . . . . . . . . . 32
        4. LEGAL OPINION OF THE OFFICE OF INSPECTOR GENERAL’S
           GENERAL COUNSEL . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 34
        5. GUAM ECONOMIC DEVELOPMENT AUTHORITY RESPONSE . . . . . . . 40
        6. STATUS OF AUDIT REPORT RECOMMENDATIONS . . . . . . . . . . . . . . . 56




                                                             3
4
                                        INTRODUCTION
BACKGROUND

The Guam Economic Development Authority was established in August 1965 as a public
corporation "to assist in the implementation of an integrated program for the economic
development of Guam" and "to be a catalyst in the economic development" of Guam by "aiding
private enterprise without unfairly competing with it." The Authority is authorized to provide
loans, issue revenue bonds, purchase mortgages, recommend to the Governor of Guam the
granting of tax rebates and abatements to qualifying businesses, and function as the
Government’s financial advisor and manager of industrial park leases. In addition, the
Authority used various trust funds to operate five loan programs.

The five active loan programs administered by the Authority were (1) the Guam Development
Fund, (2) the Agriculture Development Fund, (3) the Microenterprise Development Fund, (4)
the GEDA (Guam Economic Development Authority) Loan Fund, and (5) the Local Arts
Revolving Fund. As of September 30, 1999, the five loan programs had a total of 155
outstanding loans totaling more than $13 million in principal, interest, and fees/charges (see
Appendix 2). The two larger loan programs were as follows:

       - The Guam Development Fund was the trust fund used to account for the Authority’s
largest loan program, the Development Loan Program, which was created through Federal
legislation on October 17, 1968. According to 48 U.S.C. § 1428a, the Loan Program "shall
include and make provision for loans and loan guarantees to promote the development of
private enterprise and private industry in Guam through a revolving fund for such purposes."
The U.S. Government provided a total of $6.7 million to fund the Program. Also, 48 U.S.C.
§ 1428a required the Government of Guam, before it received any funds, to prepare for the
approval of the Secretary of the Department of Interior "a plan for the use of such funds,"
which the Secretary approved.1 After the Development Loan Program was created, the
Government of Guam contributed $100,000 to the Program’s assets. As of September 30,
1999, the Loan Program had 87 outstanding loans 2 totaling $11.7 million in principal, interest,
and fees/charges.

      - Through the Guam Code Annotated (12 G.C.A. § 52101 and 52103), the Government
of Guam created the Agriculture Development Fund in 1988 "to aid in the development or
subsidization of poultry, pork, and beef production, agricultural products, processing plants
and equipment loans. This development will be wholly on the basis of a private enterprise."
Further, 12 G.C.A. § 52106.1 stated that the Authority "shall make direct loans to and
guarantee loans of responsible non-profit cooperative associations and individual farmers
necessary for expanding facilities for the improvement of marketing of agricultural products
and other related agricultural activities." As of September 30, 1999, the Agriculture



1
 Although we could not locate the original letter approving the Plan, we did locate a June 25, 1975 letter from
the Secretary of Interior to the Governor of Guam that approved an amendment to the Plan.
2
    This number excludes three guaranteed loans totaling almost $2 million that were issued by private lenders.
                                                        5
Development Fund had 39 outstanding loans totaling almost $1.1 million in principal, interest,
and fees/charges.

OBJECTIVE AND SCOPE

The objective of the audit was to determine whether the Guam Economic Development
Authority (1) effectively administered the development loan programs and (2) achieved the
objectives for which the programs were established. The original scope of the audit included
a review of loans issued by the Guam Development Fund and Agriculture Development Fund
loan programs during fiscal years 1996 through 1999. We subsequently expanded the audit
scope to include the Authority’s administration of the Development Loan Program for fiscal
years 1986 through 1996 to include the years subsequent to the period covered in our March
1988 audit report on the Development Loan Program (No. 88-53). This is the first of three
reports we plan to issue on the Authority’s operations. The other reports will cover (1)
industrial development programs and (2) bonds, leases, and financial activities.

To obtain information on the processing, administration, and collection of loans, we
interviewed officials and/or reviewed records at the offices of the Guam Economic
Development Authority, the Authority’s independent public accounting firm, and the Guam
Office of the U.S. Small Business Administration. We also corresponded with an independent
public accountant previously contracted by the Authority and obtained a legal opinion from
our General Counsel (see Appendix 4).

Our review was made, as applicable, in accordance with the "Government Auditing
Standards," issued by the Comptroller General of the United States. Accordingly, we included
such tests of records and other auditing procedures that were considered necessary under the
circumstances.

As part of the audit, we evaluated the system of internal controls related to the financial and
operational management of the Guam Economic Development Authority loan programs to the
extent that we considered necessary to accomplish the audit objective. Based on our review,
we determined that the Authority generally achieved the loan programs’ objectives. However,
we identified internal control weaknesses in the areas of loan program operations, lending
practices, and delinquent loan collections. These weaknesses are discussed in the Findings
and Recommendations section of this report. Our recommendations, if implemented, should
improve the internal controls in these areas.

PRIOR AUDIT COVERAGE

During the past 5 years, neither the U.S. General Accounting Office nor the Office of Inspector
General has issued any audit reports on the Guam Economic Development Authority.
However, in March 1988, the Office of Inspector General issued the audit report "Guam
Economic Development Authority’s Administration of the Revolving Loan Fund" (No. 88-53).
The report stated that deficiencies related to the Development Loan Program resulted in
unauthorized loan expenditures totaling $1.8 million and delinquent loans totaling $6.7 million,
of which $3.4 million was considered uncollectible.                   The report contained


                                               6
17 recommendations, and based on our current review, we determined that 4 recommendations
had been implemented and 13 recommendations had not been implemented.




                                           7
              FINDINGS AND RECOMMENDATIONS
A. LOAN PROGRAM OPERATIONS

The Guam Economic Development Authority used $1.34 million from the Guam Development
Loan Program to cover the bad debt cost of writing off uncollectible loans and transferred
profits of $1.33 million from the sale of property recovered on a delinquent loan to its own
operating fund. These actions were contrary to legislation establishing the Loan Program and
the approved Program Plan. The Authority’s Administrator stated that the Authority did not
have adequate financial resources to absorb the costs of writing off uncollectible Loan
Program loans and that the Authority based its actions on legal opinions which stated that
payment of these expenses and transfers of profits were appropriate.

Legal Opinions Concerning Uncollectible Loans

The Office of the Solicitor, U.S. Department of Interior, issued two legal opinions, dated
August 7, 1969 and May 21, 1987, which stated that the use of loan funds for administrative
and write-off costs was not allowed under the Loan Program. The opinions were issued based
on inquiries from the Government of Guam about the use of Program funds. On February 18,
1988, the Authority obtained a legal opinion from its attorney, which stated that payments of
administrative and uncollectible loan costs were authorized uses of the funds. The Authority
obtained its legal opinion in response to the draft of our March 1988 audit report (No. 88-53)
and, based on the legal opinion, did not implement the report’s recommendation to discontinue
the practice of charging the Loan Program for uncollectible loan expenses. However, the
Authority had no record that it had informed the Office of Insular Affairs of the opposing legal
opinion.

Because the Authority’s legal opinion contradicted the two prior opinions from the Department
of the Interior’s Solicitor, we requested that our General Counsel review all three opinions
to assist us in determining (1) the authorized uses of Loan Program funds and (2) whether
alternatives were available for the Authority to recover some or all of its administrative and
uncollectible loan costs relating to the Loan Program.

On August 18, 2000, the General Counsel, Office of Inspector General, issued a legal opinion
(Appendix 4) on these issues, which stated, "The Authority can use the Fund’s interest or the
principle to recover the administrative costs of operating the loan program. The Authority
[however] cannot use the Fund’s interest or the principle for uncollectible loan costs."

We found that during the period of September 1993 to September 1999, the Authority wrote
off, against Loan Program revenues, 11 uncollectible loans totaling about $1.34 million.
However, as noted in our March 1988 report, the Federal law and the Federally approved
Plan establishing the Loan Program provide a possible alternative for the Authority to recover
uncollectible loan costs. Specifically, 48 U.S.C. §1428a states that loans from the Program
"shall bear interest (exclusive of premium charges for insurance, and service charges, if any)
at such rate per annum as is determined to be reasonable and as approved by the Secretary
. . . and that premium charges for the insurance and guarantee of loans shall be commensurate
. . . with expenses and risks covered." In our opinion, this section of the legislation clearly

                                               8
contemplates that losses related to uncollectible loans would be recovered through loan
insurance or guarantees paid for by borrowers. This opinion is supported by the August 2000
legal opinion from our General Counsel. Therefore, the Authority should reexamine the
option of charging loan insurance fees, which would allow the Authority to obtain loan
insurance to protect itself against losses related to uncollectible loans.

Property Settlement Payment

Neither the authorizing legislation nor the approved Plan provided specific guidance on the
disposal of property acquired by the Authority through foreclosures. In a January 27, 1989
interoffice memorandum, the Authority’s Financial Assistance Officer notified the
Administrator that after extensive litigation, the Authority had received a payment of
$2,199,995 as recovery on a delinquent loan. The Officer stated in the memorandum that after
applying costs totaling $840,707 to pay off the loan balance of $500,000 plus accrued interest,
attorneys’ fees, and related costs, the Authority was left with a "GDFA GAIN"3 of $1,359,288.
However, according to the minutes of a February 8, 1989 regular meeting of the Authority’s
Board of Directors, the Board "passed without objection" Resolution No. 89-006, which
required that "any excess" of sales proceeds above the amount of principal, accrued interest,
costs, and attorney fees "be deposited into GEDA’s general fund account." This action was
taken based on the legal opinion of the Authority’s attorney and despite the Financial
Assistance Officer’s memorandum stating that the $1.36 million should be deposited into the
Loan Program account. The Authority’s fiscal year 1989 audited financial statements reported
that during fiscal year 1989, a total of $1,327,5034 was transferred to the Authority’s General
Operating Fund. Because the funds were not deposited to the Loan Program Revolving Fund,
the $1.33 million was not available for future loans, which was the purpose of the Program.

Recommendations

We recommend that the Chairman of the Board of Directors, Guam Economic Development
Authority, direct the Authority’s Administrator to:

       1. Discontinue the practice of charging the Development Loan Program for the loss
resulting from uncollectible loans.

       2. Provide the Office of Insular Affairs, U.S. Department of the Interior, with
documentation related to the $1.34 million charged to the Development Loan Program for
uncollectible loans and for the $1.33 million from property settlements for its determination
as to whether the funds should be reimbursed to the Development Loan Program.

      3. Perform an analysis comparing the Development Loan Program with current Federal
loan programs in order to evaluate options for structuring the Loan Program to allow the


3
    "GDFA" referred to "Guam Development Fund Act," which was the title the Authority gave to the Federally
financed Guam Development Loan Program revolving loan fund.
4
 Because accounting records for fiscal year 1989 were no longer available, we could not determine why
$31,785 less than the $1,359,288 was transferred to the General Operating Fund.
                                                      9
Authority to recover reasonable loan insurance costs. Based on such an analysis, a revised
Loan Program Plan should be submitted to the Office of Insular Affairs, U.S. Department of
the Interior, for review prior to submission to the Secretary of the Interior for approval.

Guam Economic Development Authority Response and Office of Inspector
General Reply

In the May 21, 2001 response (Appendix 5) to the draft report from the Authority’s Chairman
of the Board, the Authority expressed nonconcurrence with Recommendations 1 and 2 and
concurrence with Recommendation 3.             Based on the response, we consider
Recommendations 1 and 2 unresolved and request additional information for
Recommendation 3 (see Appendix 6).

Recommendation 1. Nonconcurrence.

       Guam Economic Development Authority Response. The Authority stated that it chose
not to obtain loan loss insurance because of the high cost to the borrowers and that its Chief
Financial Officer has been assigned "to evaluate the creation of a loan loss reserve account
to off set future losses, utilizing a portion of the interest earned on the [Guam Development
Fund] loans."

       Office of Inspector General Reply. By its nature, the Loan Program Revolving Fund
should not be charged for uncollectible loans because the Fund would otherwise eventually
be depleted. Our General Counsel’s opinion emphasized that the Authority cannot legally use
the Fund’s principal or interest to recover the cost of uncollectible loans. Therefore, the use
of a portion of interest earned on the Development Fund loans to set up a loan loss reserve
account also would not be acceptable. The Authority must seek other legal alternatives to
recovering the losses from uncollectible loans and not charge such losses to the Development
Loan Program. The Guam Development Fund Act enabled the Authority to find alternatives
for recovering uncollectible loans, such as premium costs, collateral, or insurance. Although
the Authority resists implementing a loan insurance program because of cost considerations,
it should recognize that the beneficiaries were granted their loans under less stringent
requirements after having been turned down by more traditional lending institutions.
Accordingly, it is not unreasonable for the cost of loan insurance to be borne by all of the
beneficiaries of the Loan Program, namely the borrowers.

Recommendation 2. Nonconcurrence.

        Guam Economic Development Authority Response. The Authority stated, "GEDA
is able to provide the requested documentation on the $1.34 million in loans that were charged
off and the $1.33 million gain from a property settlement. However, GEDA does not concur
that it should reimburse the fund for the deficiency balances on the loans that were written off
and for the gain received under the property settlement cited in the audit report." The
Authority also stated that "if the [delinquent] accounts had stopped accruing interest once the
account was classified as ‘in default’ then the unpaid balances would most likely have been
recovered through GEDA’s collection efforts over a nearly fifteen year time span." The
Authority also detailed the sequence of events related to the $1.33 million gain from property

                                              10
settlement and concluded that the audit report "fails to identify any legal basis of why a lender
would not be entitled to receive any amount in excess of the original principal, interest, and
related expenses."

        Office of Inspector General Reply. Regarding the charged-off loans of $1.34 million,
the Authority has not provided any documentation to support that collection efforts were made
and were successful in recovering the defaulted amounts. The General Counsel’s opinion is
clear that losses from uncollectible loans may not be charged against the Development Loan
Fund. Therefore, we believe that the $1.34 million should be reimbursed to the Fund.
Regarding the $1.33 million gain from property settlement, the Authority’s response indicates
that at least $2.6 million from the Development Loan Fund was used in the Authority’s efforts
to redeem the property that secured the defaulted loan. We believe that, to the extent that
recoveries were made, such recoveries should have been used to reimburse the Fund for both
the principal and interest owed on the loan and the $2.6 million used during the property
settlement efforts. Lastly, the recommendation does not require the Authority to immediately
reimburse the Fund for the loan write-offs or the property settlement gain. Rather, the
recommendation simply asks the Authority to provide information to the Office of Insular
Affairs for a final determination as to whether the money should be reimbursed to the
Development Loan Program.

Recommendation 3. Concurrence.

       Guam Economic Development Authority Response. The Authority stated that it
recognizes that "there may be a need for GEDA to re-evaluate the [Development Loan
Program] to meet the island business community’s current financial needs." The Authority
further stated that its Financial Services Supervisor will be responsible for developing a
strategic plan that includes such an evaluation.

      Office of Inspector General Reply. The response did not specifically state that
options for structuring the Loan Program to allow the Authority to recover reasonable loan
insurance costs would be included in the proposed Strategic Plan.




                                               11
B. LENDING PRACTICES

The Guam Economic Development Authority lost Loan Program funds estimated at $453,653
and placed additional Loan Program funds of about $3.6 million at risk of loss because it made
loans from the Development Loan Program to a wholly owned subsidiary corporation and to
businesses that had existing delinquent Program loans or Authority leases. This occurred
because the Authority did not have written policies or procedures adequate to ensure that loans
to subsidiaries or to delinquent borrowers and lessees were subject to a strict evaluation and
approval by an Authority official of the borrowers’ ability to repay the loans. Furthermore,
since an arm’s-length relationship did not exist between the Authority and its subsidiary, the
normal checks and balances inherent in making loans to unrelated borrowers did not exist.

Guam Business Development Corporation Loans

The Authority created the Guam Business Development Corporation on August 28, 1991 (see
Appendix 3). Regarding the establishment of the Corporation, the minutes of an
April 13, 1995 Board of Directors meeting state:

      Counsel recommended that GBDC (Guam Business Development Corporation)
      go forward and get organized as the Governor is going to give GEDA some very
      heavy responsibilities in the immediate future which are going to require
      GBDC’s assistance. The chairman noted that the operation of GBDC would give
      GEDA a valuable tool as well as more flexibility in its operations. Counsel
      pointed out that GBDC can purchase supplies for GEDA without going through
      the Procurement Law, and can be useful in other areas where governmental
      regulations might otherwise interfere.

On July 13, 1995, the Authority’s Board of Directors adopted Resolution No. 95-013, which
stated, "3. Independence from governmental restrictions. That as a private corporation, GBDC
not be constrained by government of Guam statutes, rules or regulations applicable to
instrumentalities of the government of Guam."

Through September 1999, the Authority authorized three Program loans to the Corporation:
two loans totaling $1.4 million to buy land and build a warehouse as a manufacturing facility
for a locally based business and the third loan totaling $1.2 million to pay for towing a large
surplus U.S. Navy floating dry dock from Hawaii to Guam. As of September 30, 1999, the
total amount drawn down and outstanding on the three loans was $2.1 million. The
$2.6 million originally loaned to the Corporation was 38.8 percent of the $6.7 million Federal
Government contribution to the Loan Program. Under the conditions of the Federal
contributions (48 U.S.C.§ 1428b), funding for any single project was limited to 25 percent of
the Federal contributions.

We noted that the Authority did not maintain an arm’s-length relationship with the Corporation.
For example, the Authority (1) issued two of the three loans to the Corporation at the lowest
interest rate allowable under the Loan Program’s authorizing legislation; (2) did not charge
loan fees on the third loan, as was required from other borrowers; (3) did not require that the
Corporation have three bank declinations before applying for a Program loan, as required by
the Authority’s Standard Operating Procedures; and (4) made loans without
                                               12
Corporation-generated revenues being available to repay the loans. Additionally, the Board
of Directors of the Authority and the Corporation were composed of the same individuals, and
this precluded an independent assessment of the Corporation’s loan applications. Considering
the weak financial positions of the Corporation, the Authority, and the Government of Guam, 5
we believe that outstanding loans totaling almost $2.1 million as of September 30, 1999 were
at risk of loss.

       Loans on Behalf of Manufacturing Company. On December 30, 1991, the Authority
loaned the Corporation a total of $675,000 to purchase a 3/4 acre lot for about $330,000 and
build a warehouse estimated to cost $345,000 for the use of a specific manufacturing company
that had an outstanding Authority loan at the time. The Corporation planned to repay the loan
with the manufacturing company’s warehouse rental payments. At the February 23, 1996
special meeting of the Corporation’s Board of Directors (same Board members as the
Authority’s), the Board issued Resolution 96-001, which stated that "the building itself was
designed specifically for [the company’s] machinery and equipment, making it difficult to
lease to any other party." The final costs to build the warehouse were about $1.2 million, or
almost $900,000 more than the initial estimate. As a result, the Authority had to refinance the
$345,000 loan to pay for the increased construction costs. On January 28, 1994, the Authority
approved a new $1.4 million loan with a 25-year term at 4.5 percent interest per year. The
Corporation had drawn down a total of $1,229,302 by August 30, 1996. According to the
promissory note, the Corporation did not have to make a principal payment on the loan until
February 28, 1999.

When the project was completed in June 1996, project costs consisted of $370,281 to buy
about 1.2 acres of undeveloped land and $1,207,031 to build a 10,416-square-foot warehouse
(see Figure 1). However, the Corporation had insufficient revenues to make its first loan
principal payments (due February 28, 1999) and subsequent principal payments to the
Authority because the manufacturing company did not make the required payments on the lease
and vacated the building in March 2000. On September 24, 1999, the Authority approved a
resolution authorizing payments of interest only for 12 months on the Corporation’s 1994 loan
because the manufacturing company "is seriously in arrears of the rental payments, which
payments were to be used to repay the debt incurred by GBDC." In addition, the
Administrator said, "This action . . . will assist in easing the cash flow of GEDA under the
dire financial situation that currently exists in Guam."6 Finally, the Administrator told us that
this was "a bad deal from the get go" and that he had "inherited a bad deal." A prior
Administrator had the same concerns, as noted in the minutes of the Authority’s October 9,
1991 Board of Directors meeting, which stated that a prior Administrator "was concerned that
GEDA could be criticized for doing too much for the [manufacturing] company." As of
September 30, 1999, the Corporation owed a total of $1,196,202 (excluding interest) on this
loan.



5
 According to the single audit report for the Government of Guam for fiscal year 1998 (Report No. 00-A-
195), the Government had a total fund equity unreserved deficit of $262.9 million and a General Fund
unreserved deficit of $160.5 million as of September 30, 1998.
6
 As of September 30, 1999, the manufacturing company owed the Corporation delinquent lease payments of
$60,000 (for 12 months), and on November 12, 1999, the company filed for bankruptcy protection.
                                                  13
Figure 1. This 10,416-square-foot warehouse, which was vacated by a manufacturing company in
March 2000, was constructed with Loan Program funds of $1.2 million. (Office of Inspector General
photograph)


       Loan to Tow Dry Dock. On May 6, 1999, the Authority authorized a $1.2 million line
of credit to the Corporation from the Loan Program for a 2-year period at an annual interest
rate of 5 percent. The purpose of the line of credit was to pay for the costs of moving a
surplus U.S. Navy floating dry dock from Hawaii to Guam (see Figure 2).




                                               14
Figure 2. The Government of Guam dry dock that was towed from Hawaii at a cost of $1.2 million and
that has remained moored at the Guam Shipyard. (Office of Inspector General photograph)



In an April 30, 1999 Board of Directors meeting, the Authority’s Administrator recommended
that "the interest on the loan be the average U.S. Treasury rate with no spread and no fees."
According to the same Board minutes, the Administrator said that "the interest and principal
[will] be paid at maturity, because GEDA feels confident that by the end of the year [1999],
the drydock could be leased to the SRF [ship repair facility] operator and start repaying the
loan." However, the Administrator subsequently told us that the anticipated time frame for use
of the dry dock had not materialized because additional funds of up to $4 million were needed
to pay for necessary dry dock repairs at a construction facility outside Guam. In addition, after
the repairs are completed, another $1 million would be needed to move the dry dock to the
State of Oregon to be certified before it could be used to start generating revenue.

The security for this $1.2 million loan was questioned by the Authority’s Programs and
Compliance Officer 2 days before the line of credit was approved. In a memorandum to file
dated April 28, 1999, the Compliance Officer stated:

      I am however, concerned that this loan will be unsecured. . . . In order to secure
      GEDA’s lien on this dry dock, the Mortgage would need to be executed by the
      Governor of Guam on behalf of the Government of Guam. Failure to so secure
      the lien would result in: 1) a $1.2 million unsecured loan made from the Federal
      fund to GBDC; 2) no method to enforce repayment on the loan from the Gov’t. of
      Guam from the income to be obtained by GovGuam from the lease of the dry
      dock; 3) lease income received can be easily diverted to the GovGuam General
      Fund.
                                               15
As noted in the memorandum, the Government of Guam, not the Authority, owned the dry dock.
Finally, according to the Authority’s former Deputy Director, the dry dock cannot be sold
because it was obtained without cost as U.S. Navy surplus, and the Government of Guam had
to agree to conditions restricting its disposal because at least two other United States localities
wanted the dry dock. As of September 30, 1999, the outstanding amount owed on this loan
totaled $895,161 (excluding interest) and had increased to $984,703 by December 31, 1999,
and the Government may have to spend about $1 million to return the dry dock to the U.S.
Navy in Hawaii.

In our opinion, the Authority used the Corporation to avoid having to comply with
Development Loan Program requirements and, in effect, granted itself loans in
non-arm’s-length transactions despite the lack of adequate security and adequate revenues of
the Corporation to repay the loans. Based on available financial statements from fiscal years
1992 through 1999, we estimated that during the 8-year period, the Corporation had earned
$229,000, spent $1,310,000, and had an equity deficit of $486,000. We do not believe that
the loans made to the Corporation met the Program’s requirements for prudent lending, limits
on maximum loan amounts, prohibition of conflicts of interest, and adequate loan collateral.7

The Authority should provide detailed information about these loans to the Office of Insular
Affairs for its determination of whether the Authority should reimburse the Loan Program the
amount of the outstanding loans and stop making additional Program loans to the Corporation
without verifiable sources of repayment and adequate security for the loan amounts.

Loans to Delinquent Borrowers

The Authority made loans and/or released loan funds totaling over $2.1 million for six loans
to four borrowers, although the borrowers were delinquent in paying prior loans or, in one
case, an existing lease with the Authority (see Table 1).

                                       Table 1. Questionable Subsequent Loans

     Date of          Amount of           First Loan Status at             Date of            Amount of             Years             Loan Funds
    First Loan        First Loan          Date of Next Loan               Next Loan           Next Loan           Delinquent          Lost/At Risk

08/07/91             $1,600,000          No payments made                03/05/92             $350,000                   7.0            $355,414
10/05/90               $450,000          Delinquent 17 mos.              01/09/96                43,440                  4.0               44,563*
10/05/90              Same Loan          Delinquent 19 mos.              03/08/96                43,440                  4.0               49,495*
01/14/97               $250,000          Delinquent 2 mos.               03/19/97                99,700                  2.5              105,545
01/14/97              Same Loan          Delinquent 5 mos.               06/10/97**           1,200,000                  1.1            1,236,164
08/30/82                  Lease          Delinquent 12 mos.              08/31/97               317,064                  1.5              359,595*

     Totals                                                                                 $2,053,644                3.4 Avg. $2,150,776
___________________________________
*Revenues lost on these three subsequent loans totaled $453,653. Revenues considered at risk on the three loans not marked by asterisks totaled
$1,697,123. All amounts in this column include delinquent principal, interest, and service charges due as of September 30, 1999. We classified the loans
as "lost" or "at risk" based on our assessment of the borrowers’ ability to repay.
**Although the loan agreement for the $1.2 million loan was signed in December 1996, the Authority did not release the loan proceeds until June 10, 1997.




7
 The criteria for loans issued under the Development Loan Program are contained in the U.S. Code
(48 U.S.C. § 1428b).
                                                                          16
In accordance with its own operating procedures, the Authority should determine "that there
is reasonable assurance of payment" of loans (GEDA’s Standard Operating Procedures,
Volume I, Chapter I, Paragraph 6.B(2)) and perform "a penetrating examination of the
borrower’s financial condition and repayment ability" (Volume I, Chapter V, Paragraph 19.I).
However, as a result of the Authority’s actions, Loan Program funds of at least $453,653 had
been lost, and additional Loan Program funds of at least $1,697,123 were at risk of loss.

For example, in the largest of the subsequent loans listed in Table 1, the Authority approved
a loan of $1.2 million on December 20, 1996 but did not release the funds until June 10, 1997
because the borrower had not paid the loan closing fees of $5,580. In a letter to the borrower
dated June 9, 1997, the Authority’s Administrator stated that the delay in issuing the loan had
cost the Authority more than $1,000 in lost interest and that if the closing costs were not paid
by the following day, the loan commitment would be withdrawn. The delay in payment of the
closing costs was significant because the business had also not made any payments on its two
previous line-of-credit loans, one issued in January 1997 for $250,000 and the other issued
in March 1997 for $99,700. As of September 30, 1999, the only amounts collected from this
borrower on the three loans came from rental payments the Authority garnished from other
assets of the borrower. These garnished payments were insufficient to pay even the interest
on the $1.2 million loan. According to the Authority’s Administrator, the three loans were
made because the prospects for the business looked very good in early 1997, before the Guam
economy weakened, and the loan collateral was very good. We found no mention in the loan
files of any actions taken by the Authority to reevaluate the additional proposed loans, to
consider revising the loan terms, or to require that the two prior letter-of-credit loans be paid
or at least be brought current before the $1.2 million loan was released.

Recommendations

We recommend that the Chairman of the Board of Directors, Guam Economic Development
Authority, direct the Authority’s Administrator to:

       1. Require a written analysis and official certification by the Administrator of the
ability of the Guam Business Development Corporation to repay any future loans or other
advances of funds made from the Loan Program prior to making any such loans or advances.

      2. Provide to the Office of Insular Affairs detailed information about the outstanding
loans to the Guam Business Development Corporation for determination as to whether the
Authority should reimburse the Development Loan Program the amount of the outstanding loans
and stop making additional Program loans to the Corporation without verifiable sources of
repayment and adequate security for the loan amounts.

       3. Develop and implement policies and procedures to ensure that Authority personnel
take prudent action, such as performing analyses of repayment ability and requiring that prior
loans be brought current, to protect the Development Loan Program resources in instances
when delinquent borrowers or lessees request additional Program loans.

In addition, we recommend that the Board of Directors, Guam Economic Development
Authority:

                                               17
        4. Amend the Guam Business Development Corporation’s Articles of Incorporation
to create a separate Board of Directors, comprised of members other than Guam Economic
Development Authority Board members, employees and their spouses, and appoint a new
Board of Directors for the Guam Business Development Corporation accordingly.

Guam Economic Development Authority Response and Office of Inspector
General Reply

In the May 21, 2001 response (Appendix 5) to the draft report from the Authority’s Chairman
of the Board, the Authority expressed nonconcurrence with Recommendations 1, 2, 3, and 4.
Based on the response, we consider the four recommendations unresolved (see Appendix 6).

Recommendation 1. Nonconcurrence.

        Guam Economic Development Authority Response. The Authority stated that it
does not consider the Guam Business Development Corporation’s (GBDC) ability to repay
the loans an issue because the primary source of funds for repayment is lease income on assets
of the borrower and that since the Authority is the parent corporation of GBDC, the Authority
has substantial assets to fully satisfy any amounts owed by the GBDC. The Authority also
stated, "[i]n the event GEDA determines that the loans to GBDC are in default, GEDA’s
substantial assets are able to fully satisfy any amounts owed."

        Office of Inspector General Reply. Our review indicated that both loans (for the
warehouse and the dry dock) to the GBDC, a subsidiary of the Authority, were at risk. In
January 1994, the Authority approved a promissory note to postpone repayment of the loan
principal for 5 years. The manufacturing company was in arrears in its rental payments to the
GBDC. Without this income, the GBDC did not have available funds to repay the loan. In
addition, at the time of our review, the dry dock had not generated any income because
additional funding of $5 million was needed to repair and certify the dry dock for operation.
Therefore, we question the GBDC’s repayment ability for either these loans or any future loans
or fund advances since both loans were not generating any income for GBDC. Further, the
Authority’s argument that its own resources would be sufficient to pay off the GBDC loans
supports our conclusion that the Authority and the GBDC did not have an arm’s-length
relationship with adequate checks and balances.

Recommendation 2. Nonconcurrence.

         Guam Economic Development Authority Response. The Authority said that it
considers the loan of $1.4 million for land purchase and warehouse construction and the loan
of $1.2 million for dry dock towing to the GBDC as two separate projects that individually
fell below the statutory lending cap of 25 percent of the $6.7 million Federal Government
contribution to the Loan Program. The Authority also defended the rationale for the two loans,
stating that the warehouse construction project and the purchase of the dry dock would create
economic benefits for Guam.




                                             18
        Office of Inspector General Reply. The Authority’s argument that the two loans
should be viewed separately when applying the 25 percent funding limitation is not valid.
Under an arm’s-length relationship with a private borrower, two separate loans to the same
borrower would be considered jointly with regard to the 25 percent funding limitation.
Therefore, we believe that the two loans to the GBDC should also be considered jointly, even
though they were for different purposes. Additionally, following the Authority’s argument, it
could make additional loans to the GBDC for any number of distinct purposes as long as the
individual amounts did not exceed the 25 percent limitation. Under such a scenario, the loan
fund could easily be depleted, given the GBDC’s previous financial record. Regarding the
economic justification for the two loans, the loan for warehouse construction was in default,
and the facility has been vacant and unused since March 2000. The loan for relocating the dry
dock was also of questionable economic benefit because the dry dock remains unused and it
has been estimated that an additional $5 million will be needed for repairs and certification
of the dry dock before it will be usable.

Recommendation 3. Nonconcurrence.

        Guam Economic Development Authority Response. The Authority stated that it has
policies and procedures in place to administer and monitor the Development Loan Program
and that the loans involved taking calculated risks. The Authority then described several loans
that were successfully repaid by the borrowers and stated that these successful loans were
made under the same procedures as the delinquent loans cited in the finding. However, the
Authority concluded that it will review its current practices to determine if there are
deficiencies.

        Office of Inspector General Reply. While we acknowledge that the Authority had
many successful loans, the finding focused on instances in which the Authority made loans to
businesses that were already delinquent on prior loans. In our opinion, the Authority was not
prudent in safeguarding the Loan Program’s assets by repeatedly taking the unreasonable risk
of giving new loans to borrowers who were already delinquent. If the Authority had
effectively implemented its existing policies and procedures, it would not have approved
subsequent loans until problems with the prior loans had been settled. A primary concern of
the Authority should be to reasonably protect the Loan Program from abuses by delinquent
borrowers.

Recommendation 4. Nonconcurrence.

        Guam Economic Development Authority Response. The Authority stated that
creating a separate Board of Directors for the GBDC composed of members other than
Authority Board members will not address the issue of maintaining an arm’s-length
relationship between the two entities because the Authority will still have a controlling
interest in the GBDC. However, the Authority stated that it will work to establish insider
lending policies and procedures, consistent with industry standards.




                                              19
        Office of Inspector General Reply. Our review indicated that there was no
separation between the Authority’s Board and the GBDC’s Board because the members of
both boards were the same. As a result, the Board of Directors of the Authority could not
perform its tasks independently from the Board of Directors of the GBDC and vice versa.
Also, there were no internal controls that would prevent the Authority from unilaterally
approving any of GBDC’s requests because both boards were the same. We believe that if
the Authority’s Board was separate from the GBDC’s Board, there would be a greater
likelihood of independent action by the Authority and the GBDC in dealings with each other.
For example, the Authority’s Board might have reviewed the loan applications from the GBDC
more carefully before approving the loans for the warehouse and the dry dock.




                                            20
C. COLLECTION ENFORCEMENT

The Guam Economic Development Authority may have lost $2.3 million in delinquent loans and
placed another $2.2 million in delinquent loans at risk of loss8 because it did not effectively approve
loans and collect delinquent loans, and lost at least $303,697 and placed another $784,000 at risk
because of the declining value of foreclosed real property. Specifically, the Authority did not (1)
require that problem borrowers be referred for management assistance, (2) ensure that its attorneys
took timely action to protect the Authority’s interests in loan collateral, and (3) sell repossessed real
property in a timely manner. These conditions occurred because the Authority had not provided
training to ensure that personnel had the necessary loan collection skills, had not developed policy
guidelines to ensure that the Authority’s attorney took prompt action against delinquent borrowers,
and had not established policies to ensure that repossessed real properties were sold timely.

Procedural Requirements

The Authority’s Standard Operating Procedures (Volume II, Chapter IV, Paragraph 44) state that
"immediately upon receipt of notice of default, [the] Loan Division shall" ensure the borrower and
the Authority are "doing everything possible to bring the loan to current status" and maintain strict
followup "to avoid excessive accrual of interest." In addition, Paragraph 75 of the Procedures
states, "A loan will be transferred to the ‘in liquidation’ classification when it is necessary to resort
to the collateral or to otherwise enforce collection when the Agency’s interest in the collateral . . .
may be in jeopardy."

With regard to actions to be taken to assist delinquent borrowers, the Procedures state that loan
delinquencies in excess of 60 days "will trigger intensive servicing activity by the loan officer since
this is prime symptom of underlying problems" (Volume II, Chapter I, Paragraph 5.b(2)) and that
the loan supervisor may require field visits in cases involving new loans that have the potential for
problems and older problem loans (Volume II, Chapter III, Paragraph 13). Further,
Paragraph 13.c of the Procedures states that "where determination has been made that a new loan
has problem potential," the loan personnel should "counsel the borrower to the extent practicable
with a view toward forestalling future financial difficulties," "review [the] adequacy and reliability
of accounting records," and "determine whether management assistance is needed, or if borrower
desires assistance." In addition, Chapter IX, Paragraph 83, states, "Specialized management
assistance services will be made available to identify and resolve management deficiencies and/or
prevent deficiencies from occurring in the future."

Finally, with regard to security collateral, the Procedures (Volume I, Chapter VI, Paragraph 25.A)
state that "all loans shall be of such sound value or so secured as reasonable to assure repayment.




8
 To avoid duplicate counting of loans discussed in Findings A and B, the amounts reported in Appendix 1 were
reduced by $359,595 for lost revenues and by $1,236,164 for revenues at risk. Accordingly, the total amount
of Funds to Be Put to Better Use for "Collection Actions" (Appendix 1) is $2,951,018.
                                                    21
It is important, therefore, that the collateral securing each loan be carefully evaluated. The files
should contain documentary evidence of such values."

Collection Actions

Paragraph 11 of the Development Loan Program Plan requires that Loan Program procedures
parallel those used by the U.S. Small Business Administration’s (SBA) small business loan
program.9 We found that the SBA’s delinquency rates for regular business loans issued in Guam
and Micronesia were 13 percent of the total number of outstanding loans and 15 percent of the
outstanding balances. In comparison, the Authority had delinquency rates of 66 percent of the total
number of outstanding loans and 75 percent of the total amount of outstanding balances.

We judgmentally selected for review 20 loans (16 Development Loan Program loans and
4 Agriculture Program loans) out of 126 loans that were outstanding as of September 30, 1999.
Of the 20 loans reviewed, 11 loans (7 Development Loan Program loans and 4 Agriculture Loan
Program loans) had been delinquent for at least 1 year and averaged almost 3.5 years delinquent.
Based on our analyses of the case files for each of the 11 loans, we considered the outstanding
balances of unpaid principal, interest, and fees for 3 of the Development Loan Program loans
totaling $2,307,979 to be uncollectible. We also considered the outstanding balances of unpaid
principal, interest, and fees for the remaining four Development Loan Program loans and the four
Agriculture Loan Program loans totaling $2,238,799 to be at risk (see Table 3).




9
 When they were initially implemented, the Authority’s loan procedures generally paralleled those of the SBA.
However, the Authority’s procedures had not been updated since 1985. Revised procedures had been drafted,
but had not been adopted as of the time of our review.
                                                    22
                  Table 3. Selected Delinquent Loans as of September 30, 1999

                                                                                         Delinquent Loan Balances
                          Date Loan         Final Loan        Principal         Years        Lost      Revenues
Loan Purpose               Signed            Amount             Paid          Delinquent Revenues        at Risk

Development Loan Program Loans:
Manufacturing      10/05/90   $447,631                          $91,697            4.0            $374,738                   0
Transportation*    08/07/91  1,950,000                          471,767            7.0            1,573,646                  0
Services **        02/14/92     150,000                               0            3.7                    0          $153,492
Services ***       04/22/93     336,184                          77,313            6.7                    0            261,094
Manufacturing**** 12/20/96   1,200,000                           11,089            1.1                    0          1,236,164
Services           07/13/97      87,590                           3,344            1.0                    0             89,742
Import****         08/31/97     317,064                               0            1.5             359,595                   0
  Subtotals                 $4,488,469                         $655,210         3.6 Avg.         $2,307,979         $1,740,492

Agriculture Loan Program Loans:
Farming              07/03/91                  $10,000           $7,913            2.4                        0          $2,244
Farming              11/24/93                  234,866            8,112            4.0                        0         266,158
Farming              12/29/93                   97,140                0            4.0                        0         111,602
Farming              02/07/94                  166,379           49,265            2.8                        0         118,302
  Subtotals                                   $508,385          $65,290         3.3 Avg.                      0        $498,306

  Totals                                    $4,996,854         $720,500         3.5 Avg.         $2,307,979         $2,238,798
_________
*This was a Program-guaranteed loan that the Authority purchased from the issuing bank when the borrower declared
bankruptcy in February 1993. All available assets have been liquidated and funds applied to pay outstanding interest and part
of the outstanding principal. The number of years delinquent was computed from the date of the original guaranteed bank loan
in 1991.
**The "Years Delinquent" for this loan was calculated from the expiration date of an agreement that allowed the borrower to
make interest-only payments for a specific period of time.
***For this loan, all available assets have been liquidated, and funds have been applied to pay outstanding interest and principal.
****Because these two loans were also included in Table 1 of Finding B, to avoid duplicate counting the delinquent loan balances
are not included in Appendix 1 as Funds to Be Put to Better Use.


Based on our review of the Authority’s efforts to collect these delinquent loans, we determined that
improvements need to be made in the areas of financial analysis/management assistance and legal
actions.

        Financial Analysis/Management Assistance. Although the Authority performed on-site
visits at businesses with delinquent loans, Authority staff did not perform thorough financial analyses
of the businesses’ ability to generate cash flows adequate to bring their delinquent loans current and
continue loan payments. Authority staff also did not refer any of the delinquent businesses for
management assistance. None of the loan files for the 11 delinquent loans reviewed included a
detailed financial analysis of the ability of the business to repay the delinquent loan. According to
both the Authority’s Administrator and the Program and Compliance Officer, Authority staff
needed specialized training in financial analyses to perform such reviews and to make management
assistance recommendations. Further, the Authority’s loan officials said that as of March 31, 2000,
they had not made any referrals for management assistance for at least 5 years. The loan officials

                                                               23
stated that Guam did not have adequate business advisory resources to which "problem" borrowers
could be referred. In our opinion, thorough financial analyses and appropriate recommendations
to management would help business owners focus on key areas of the struggling businesses to
improve their chances of recovery or, where necessary, ensure that the Authority took faster action
to collect on collateral before it became unavailable or lost its value. For example:

       - On October 5, 1990, the Authority issued to a manufacturing company a Development
Loan Program loan of $450,000, of which the company drew down $447,631. The borrower
soon had problems making loan payments, and the loan was restructured on April 1, 1993 to
reduce the interest rate and extend the loan term for an additional 2 years and 3 months by
reissuing the loan effective January 1, 1993 and keeping the existing 7 year payment term.
However, by September 30, 1999, only 3 months before the loan term was to expire, the
borrower owed $374,738, including interest and fees, and was 4.1 years behind in loan payments.
When the borrower filed for bankruptcy on November 12, 1999, only $91,697 had been paid on
the loan’s principal. The Authority had acknowledged that the borrower had serious problems by
placing the loan in "nonaccrual" status on December 5, 1997 and referring the loan to its attorney
for collection action on January 22, 1998. However, the Authority had no record of having
performed a detailed financial analysis of the company or of referring the company for management
assistance. Either action might have helped the company in its financial difficulties or at least would
have alerted the Authority to take timely action to recover whatever funds it could through
foreclosure on the loan collateral rather than let the situation continue for 4 years. Because the
company filed for bankruptcy in November 1999, as of March 31, 2000, the Authority was not
in a position to initiate foreclosure proceedings against the company.

       - On November 24, 1993, the Authority issued to a farming business a 3-year Agriculture
Development Loan of $402,565, of which the company drew down $234,866. Although the
Authority restructured the loan in January 1996 and again in October 1997, the borrower made
only five payments on the principal and, as of September 30, 1999, owed a total of $266,158,
including interest and fees. The Authority had initiated legal action against the borrower on
March 14, 1997, but the loan files contained no evidence of a financial analysis of the borrower
or referral for management assistance. The business appears to have had financial difficulties from
the beginning of the loan period, yet the only apparent effort made by the Authority to resolve the
problem was to restructure the loan rather than to try to identify and correct the basic causes of the
business’s financial difficulties.

       Legal Actions. For at least 3 of the 11 delinquent loans reviewed, the Authority did not
take legal action, in a timely manner, to collect the unpaid loan. The Authority used the same legal
counsel from February 1, 1995 through December 31, 1999, and according to the Authority’s
Administrator, the legal counsel was not aggressive in initiating collection actions.

On two occasions during 1994 the Authority took action to foreclose on the collateral of delinquent
borrowers, issuing a foreclosure notice to one borrower and initiating foreclosure action against a
second borrower. Shortly thereafter the borrowers agreed to begin repaying the delinquent loans,
and the Authority stopped the foreclosure actions and signed forbearance agreements with the

                                                 24
borrowers. However, neither borrower complied with the agreements and, as of September 30,
1999, had not made any principal payments since the dates of the forbearance agreements.
According to the Administrator, foreclosure proceedings were not restarted in a timely manner
against the two borrowers because the legal counsel had not been aggressive in acting on the
Authority’s requests. In February 2000, the Authority sent one of the delinquent cases to its new
legal counsel for collection action. However, as of March 2000, no further action had been taken
in the second case, relating to a telecommunications company.

Regarding the telecommunications company, on February 14, 1992, the Authority issued the
company a 15-year Development Loan Program loan of $150,000, which was fully drawn down.
On March 21, 1994, the Authority placed the loan in "nonaccrual" status, but the Authority did not
refer the loan to its legal counsel for collection action until September 19, 1997. According to the
Authority Administrator, as of March 7, 2000, the Authority’s legal counsel had not taken action
on the referral. In fact, the Authority’s new legal counsel had to ask the Authority to provide the
current status on this and other delinquent cases that had previously been referred for legal action.
During a meeting on April 5, 2000, the Administrator told us that legal action was in process and
that the prospects were good for collecting the $153,492 that was delinquent as of that date.

Real Property Obtained by Foreclosure

The Authority did not have written policies or procedures specifying when to dispose of real
property obtained through foreclosure on defaulted loans. According to the Authority’s
Administrator and Chief Financial Officer, the objective of foreclosing on real property was to
recover as much of the unpaid loan as possible.

However, the Authority did not act aggressively to dispose of real property acquired through
foreclosures because management had not requested or obtained formal direction from the Board
on how to handle the sale of Authority assets in a weak real estate market with decreasing property
values. The Administrator stated that the Authority attempted to sell the properties in 1996 but that
the offers received were very low. He further said that the Authority decided to delay the sale of
foreclosed property until real estate values increased. However, according to the President of the
Guam Board of Realtors, the Guam real estate market began to deteriorate in 1996, with appraised
values of property decreasing 10 to 20 percent each year at least through 1999, with no prospect
of a change in this condition in the near future. Therefore, by holding the foreclosed properties, the
Authority (1) had incurred losses that we estimated to be at least $303,697 on properties which
either were sold or reduced in value between the first appraisal after acquisition and the most recent
appraisal, (2) had not collected about $784,000 on unsold properties that would then be available
for lending, and (3) lost potential interest that would have been earned if these funds had been
loaned.

As of October 1, 1996, the Authority owned 11 parcels of real property that it had obtained
through foreclosure action on defaulted loans originally totaling $1,444,286. The Authority valued
the properties at $901,020, which included the total amount of unpaid loan principal, interest, and
fees at the time of acquisition, as shown in Table 4.
                                                 25
                             Table 4. Real Property Acquired Through Foreclosure

                                           Initial                                                      Most          Gain or (Loss)
Size of Parcel       Date            Years  Loan            Value at         First           Sales      Recent        On Sale or Since
In Sq. Meters       Acquired         Held Amount           Acquisition     Appraisal         Price     Appraisal*      First Appraisal

Properties Sold Since October 1, 1996:

   Development Loan Program Loans:

   4,046             09/80        16.8         $250,000        $ 8,100       $15,200       $76,000            $0         $67,900
   1,136             06/93         4.0           75,000        41,000         50,000        55,000             0          14,000
     929             07/94         2.9          130,000        26,097         25,000        21,000             0          (5,097)****



  Subtotals for Sold Properties                $455,000        $75,197        $90,200      $152,000           $0         $76,803

Properties Still Held by the Authority:

   Development Loan Program Loans:

   1,517             12/86         12.8        $ 26,000         $2,700       $54,000             $0     $ 35,000        $(19,000)
     666             02/88         11.6          25,000         24,000        22,000              0            0 **      (22,000)****

    1106             01/89         10.7          10,000         46,000         34,000             0       40,000           6,000

  53,474             10/89          9.9          82,000        123,968        477,600              0     240,000        (237,600)****
   1,077***          06/94          5.3         250,000         81,200         40,000             0       40,000              0
   1,650***          06/94          5.3                        74,900         65,000              0       65,000              0
     763             10/94           4.9        296,286       136,386        194,000              0      174,000         (20,000)****



   Agriculture Loan Program Loan:

 202,343             12/95          3.8        $300,000      $336,669       $190,000            $0      $190,000                 0

  Subtotals for Unsold Properties              $989,286      $825,823     $1,076,600            $0      $784,000       $(292,600)

  Totals                                     $1,444,286      $901,020
__________
*As of September 30, 1999, the Authority=s most recent appraisals of these properties were dated in July 1996. If the same amount is
shown in both the "First Appraisal" and "Most Recent Appraisal" columns, this indicates that only one appraisal was performed.
**Subsequent to the "First Appraisal," the property was designated as a historical preservation district, and the Authority was prohibited
from selling the property. Therefore, the property essentially has no commercial market value.
***Two properties were acquired through the foreclosure of one loan.
****These losses totaled $303,697.


     In one example, on October 19, 1989, the Authority acquired a one-tenth interest in a
     53,474-square-meter (more than 13 acres) undeveloped parcel of property on Guam through
     foreclosure to recover $123,968 owed by a Development Loan Program borrower. We found
     no evidence in the loan files to indicate that the Authority attempted to sell this undivided interest.
     However, according to two appraisals, by waiting, the value of the property declined by almost
     50 percent between 1989 and 1996. In addition, based on available records, the property was
                                                                   26
subdivided in 1998, but, as of December 31, 1999, the Authority still did not have clear title. If
the Authority had been able to force the sale of this undeveloped property in 1989 at the appraised
value of $4,776,000, we estimated that the Authority’s one-tenth share before expenses would
have been $477,600. Based on the 1996 appraised value of $240,000 for a one-tenth share, the
Authority lost at least $237, 600. Because the property apparently has been subdivided but the
Authority’s portion has not been clearly identified, the Authority should take action to resolve the
matter as soon as possible and then sell its share of the property.

The remaining properties listed in Table 4 were all owned in their entirety by the Authority.
Because the latest appraisals were performed in 1996, as of September 30, 1999 the current
values of the properties were unknown. Based on the general decline of property values on Guam,
however, we believe they were below the 1996 values.

Recommendations

We recommend that the Chairman of the Board of Directors, Guam Economic Development
Authority, direct the Authority’s Administrator to:

      1. Provide Authority loan officers with specialized training in financial analysis and refer
businesses in financial difficulties for management assistance.

      2. Establish and implement policy guidelines for timely action by Authority attorneys in
addressing Authority requests for legal action on delinquent loans.

      3. Establish and implement an Authority policy to sell repossessed real property as soon
as possible after repossession unless a specific written justification is prepared and approved by
the Board of Directors to delay the resale. The Authority should also take action to sell currently
owned repossessed property.

Guam Economic Development Authority Response and Office of
Inspector General Reply

In the May 21, 2001 response (Appendix 5) to the draft report from the Authority’s Chairman of
the Board, the Authority expressed concurrence with Recommendation 2 and nonconcurrence with
Recommendations 1 and 3. Based on the response, we consider Recommendations 1 and 3
unresolved and request additional information for Recommendation 2 (see Appendix 6).

Recommendation 1. Nonconcurrence.

       Guam Economic Development Authority Response. The Authority stated that it is
staffed with professionals who have extensive lending experience but that it "recognizes the need
for continued development of its staff to meet increased mandates and demands for its services."
Therefore, it developed a training plan in October 1999 and tasked the Administration and

                                                27
Operations Manager to assess the staff’s training needs and develop a training schedule. The
Authority also stated that it does not concur that it "did not take any action in development of
financial management and referral services for program loan clients." The Authority further stated
that "in-house business counseling is not a viable alternative, as there exists a conflict of interest and
a liability to GEDA should its Loan Officers engage in counseling its borrowers on any aspect of
their business operations."

       Office of Inspector General Reply. We acknowledge that the Authority is staffed by
professionals who have extensive commercial lending experience, especially in upper management.
However, we believe that the Authority needs to develop the skills of the employees who work
with the borrowers on a day-to-day basis. With regard to financial assistance, our review indicated
that the Authority had not made any referrals during the last 5 years. We disagree that providing
advice to businesses would constitute a conflict of interest because we did not envision that the
advice or counseling would be provided by the loan officers but by other staff within the Authority
dedicated to that task. Further, the Board adopted Volume II of the Standard Operating
Procedures, which requires that the Authority provide various levels of assistance to delinquent
borrowers. By doing so, the Authority would be able to help the businesses correct problems early
and avoid more serious problems later. This approach is taken by the U.S. Small Business
Administration, which provides management assistance services to participants of its programs.
Nevertheless, we have revised the recommendation to require that the Authority provide loan
officers with specialized training in financial analysis and refer businesses in financial difficulties for
management assistance, leaving it to the Authority’s discretion whether to refer troubled businesses
to outside sources for management assistance or to develop an in-house capability to provide this
service.

Recommendation 2. Concurrence.

       Guam Economic Development Authority Response. The Authority stated that it had
hired a new legal counsel, centralized its legal counsel activities with a Special Projects Coordinator
tasked with the responsibility to monitor requests for legal assistance, and restructured its
organization as related to the collection of accounts that are 30 to 90 days delinquent and those that
are over 90 days delinquent.

       Office of Inspector General Reply. Although we commend the Authority for the actions
taken, the recommendation was for establishment and implementation of policy guidelines for timely
legal action on delinquent loans. The response did not indicate whether such guidelines, specifying
the time frames for legal action, had been developed.

Recommendation 3. Nonconcurrence.

      Guam Economic Development Authority Response. The Authority stated that
procedures for the disposal of foreclosed real property are documented in Volume III of the
Standard Operating Procedures. The Authority also stated that it has made efforts to dispose of
repossessed property in a timely manner but that "economic conditions have prevented several

                                                   28
attempts for reasonable recoupment of losses." The Authority also noted an error in a section of
Table 4 of the finding and explained the circumstances related to specific examples of repossessed
property cited in the finding.

       Office of Inspector General Reply. Despite the procedures that exist in Volume III of
the Standard Operating Procedures, we maintain that the Standard Operating Procedures do not
include a policy specifically requiring the timely disposal of properties obtained through loan
foreclosure. With regard to Table 4, we have corrected the section on "Properties Sold Since
October 1, 1996" and revised the related sections of the finding accordingly. Based on the revised
Table 4, we concluded that at least $303,697 may not be available for future loans as a result of
the Authority’s delays in selling the properties. Of the 11 parcels acquired through foreclosure
action on defaulted loans through October 1, 1996, the Authority lost $5,097 on a sale of one
parcel and had a total potential loss of $298,600 for four other unsold parcels based on the decline
in value between the first appraisals and the most recent appraisals.




                                                29
                                                                  APPENDIX 1


             CLASSIFICATION OF MONETARY AMOUNTS*

                                                                    Funds To
                                                                   Be Put To
                   Finding Area                                    Better Use

A. Loan Program Operations
   Legal Opinion Concerning Uncollectible Loans                    $1,338,413
   Property Settlement Payment                                      1,327,503

B. Lending Practices
   Guam Business Development Corp. Loan                             2,091,363
   Loans to Delinquent Borrowers                                    2,150,776

C. Delinquent Loan Collections
   Collection Actions                                               2,951,018**
   Real Property Obtained by Foreclosure                            1,087,697

       Totals                                                     $10,946,770




*Amounts represent Federal source funds unless otherwise noted.
**Amount includes local funds of $493,906.




                                                 30
                                                                                      APPENDIX 2


          GUAM ECONOMIC DEVELOPMENT AUTHORITY
           OUTSTANDING LOANS BY FUNDING SOURCES
                  AS OF SEPTEMBER 30, 1999


                                                                    Original                  Total
                                                 Number             Amount                   Amount
            Loan Program                         of Loans           Loaned                   Owed

Guam Development Fund                                 87*       $13,628,904             $11,748,237

Agriculture Development Fund                          39           1,673,173                 1,098,119

Microenterprise Development Fund                      24             189,980                  179,923

Development Authority Loan Fund                        3               20,375                  16,421

Local Arts Revolving Fund                              2               25,800                  14,954

        Total                                      155          $15,538,232             $13,057,654




_________________
*Excludes three bank loans totaling $1,980,700 guaranteed under the Guam Development Fund.




                                                 31
                                                                                        APPENDIX 3
                                                                                          Page 1 of 2

        GUAM BUSINESS DEVELOPMENT CORPORATION’S
         LEGAL STRUCTURE AS OF DECEMBER 31, 1999

On August 28, 1991, the Guam Economic Development Authority created the Guam Business
Development Corporation from a predecessor corporation when the Authority’s Board members,
acting as the Corporation’s Board, adopted amended articles of incorporation. The Corporation
was a wholly owned subsidiary of the Authority.1 Article 3, Section 3.01, of the Corporation’s
articles of incorporation states in part, "This Corporation is formed for the purpose of promoting
the economic development of the Territory of Guam, acquiring and developing real property within
the Territory of Guam and to promote the various interests of the Guam Economic Development
Authority and the funds which it administers." Section 3.02 includes paragraphs defining the
Corporation’s powers, which include borrowing and lending money, buying and selling property,
buying and selling securities, and promoting and improving land.

In a legal opinion dated March 22, 1989, the Authority’s legal counsel responded to the question,
"Can [the Authority] form a subsidiary and then loan it money from the [Guam Development] Fund
in order for the subsidiary to then use the money on a project which will benefit Guam’s economy?"
The legal counsel’s opinion stated, "The answer to [the] question is ‘yes,’ provided that the money
is actually loaned to the subsidiary and the subsidiary uses the money in a way which develops
Guam’s economy, such as housing." The legal counsel also stated, "In conclusion, [the Authority’s]
enabling legislation expressly contemplates the type of loan under consideration here. The [Guam
Development Fund] Act and [the Authority’s Guam Development Fund] Plan would also permit
a loan of this nature. The only considerations which might bar the loan are [the Authority’s]
necessary inquiry as to whether funds are otherwise unavailable and the potential conflict of interest
in loaning funds to a corporation staffed by [Authority] officers or employees." The legal counsel
provided this guidance so that the Authority could address the issues in the loan process. In a
subsequent legal opinion dated October 29, 1993, the Authority’s legal counsel stated that "it is
my opinion that procurements made by a corporation in which [the Authority] owns stock are not
subject to the [Guam Procurement Law]."

In a memorandum dated June 1, 1994, the Director of the Guam Department of Revenue and
Taxation determined that the Corporation "is an exempt entity as to all taxes levied under Guam
law." The official minutes of an August 4, 1993 meeting of the Authority’s Board of Directors,
when discussing transferring Authority surplus to the Development Program, state, "The
Administrator explained that this [Guam Development] Fund is quite restrictive and the funds could
be better used if put into the [Authority’s] subsidiary which has a great deal more flexibility." The
minutes also note that the Administrator "ask[ed] that the Board also authorize any surplus . . . be
likewise transferred to the GBDC [Guam Business Development Corp]."



1
  The Corporations’s Board of Directors was the same as the Authority’s Board, the Corporation’s General
Manager was the Authority’s Administrator, and the individuals holding the Corporate offices changed with
the appointment of different Authority Board members and administrators.
                                                  32
                                                                                  APPENDIX 3
                                                                                    Page 2 of 2


On August 18, 2000, the General Counsel of the Office of Inspector General issued a legal opinion
(Appendix 4) in response to a question about the appropriateness of the Authority’s lending to its
subsidiary. The General Counsel stated, "The Authority can give a loan to a wholly owned
subsidiary if the statutory eligibility criteria are met."




                                               33
                                APPENDIX 4
                                  Page 1 of 6

     LEGAL OPINION OF THE
OFFICE OF INSPECTOR GENERAL’S
       GENERAL COUNSEL




             34
     APPENDIX 4
       Page 2 of 6




35
     APPENDIX 4
       Page 3 of 6




36
     APPENDIX 4
       Page 4 of 6




37
APPENDIX 4
  Page 5 of 6
     APPENDIX 4
       Page 6 of 6




39
                                     APPENDIX 5
                                      Page 1 of 16


GUAM ECONOMIC DEVELOPMENT AUTHORITY RESPONSE




                     40
     APPENDIX 5
      Page 2 of 16




41
     APPENDIX 5
      Page 3 of 16




42
     APPENDIX 5
      Page 4 of 16




43
     APPENDIX 5
      Page 5 of 16




44
     APPENDIX 5
      Page 6 of 16




45
     APPENDIX 5
      Page 7 of 16




46
     APPENDIX 5
      Page 8 of 16




47
     APPENDIX 5
      Page 9 of 16




48
     APPENDIX 5
     Page 10 of 16




49
     APPENDIX 5
     Page 11 of 16




50
     APPENDIX 5
     Page 12 of 16




51
     APPENDIX 5
     Page 13 of 16




52
     APPENDIX 5
     Page 14 of 16




53
     APPENDIX 5
     Page 15 of 16




54
     APPENDIX 5
     Page 16 of 16




55
                                                                            APPENDIX 6
                                                                              Page 1 of 4


    STATUS OF AUDIT REPORT RECOMMENDATIONS


Finding/Recommendation
       Reference           Status                         Action Required

         A.1             Unresolved.        Reconsider the recommendation, and
                                            provide a response indicating concurrence
                                            or nonconcurrence. If concurrence is
                                            indicated, provide an action plan that
                                            includes the target date and title of the
                                            official responsible for stopping the practice
                                            of charging the Loan Program for losses
                                            attributable to uncollectible loans.

         A.2             Unresolved.        Reconsider the recommendation, and
                                            provide a response indicating concurrence
                                            or nonconcurrence. If concurrence is
                                            indicated, provide an action plan that
                                            includes the target date and title of the
                                            official responsible for submitting
                                            documentation on the uncollectible loans
                                            and property settlements to the Office of
                                            Insular Affairs, U.S. Department of the
                                            Interior.

         A.3             Management         Provide an action plan that includes the
                         concurs;           target date and title of the official
                         additional         responsible for evaluating options for
                         information        restructuring the Loan Program to allow the
                         requested.         Authority to recover loan insurance costs
                                            and for submitting a revised Loan Program
                                            Plan to the Office of Insular Affairs, U.S.
                                            Department of the Interior.




                                       56
                                                                            APPENDIX 6
                                                                              Page 2 of 4


Finding/Recommendation
       Reference           Status                         Action Required

         B.1             Unresolved.        Reconsider the recommendation, and
                                            provide a response indicating concurrence
                                            or nonconcurrence. If concurrence is
                                            indicated, provide an action plan that
                                            includes the target date and title of the
                                            official responsible for submitting a written
                                            analysis and certification of the Guam
                                            Business Development Corporation’s ability
                                            to repay any future loans or funds advanced
                                            from the Loan Program prior to making
                                            such loans or advances.

         B.2             Unresolved.        Reconsider the recommendation, and
                                            provide a response indicating concurrence
                                            or nonconcurrence. If concurrence is
                                            indicated, provide an action plan that
                                            includes the target date and title of the
                                            official responsible for providing information
                                            on outstanding loans to the Government
                                            Business Development Corporation to the
                                            Office of Insular Affairs, U.S. Department
                                            of the Interior, and stopping the practice of
                                            approving Loan Program loans to the
                                            Corporation without verifiable repayment
                                            sources and adequate security for the loans.

         B.3             Unresolved.        Reconsider the recommendation, and
                                            provide a response indicating concurrence
                                            or nonconcurrence. If concurrence is
                                            indicated, provide an action plan that
                                            includes the target date and title of the
                                            official responsible for implementing policies
                                            and procedures for analyzing the repayment
                                            ability of borrowers and requiring that
                                            payments on prior loans be current before
                                            additional loans are given to loan applicants.




                                       57
                                                                             APPENDIX 6
                                                                               Page 3 of 4



Finding/Recommendation
       Reference           Status                          Action Required

         B.4             Unresolved.        Reconsider the recommendation, and
                                            provide a response indicating concurrence
                                            or nonconcurrence. If concurrence is
                                            indicated, provide an action plan that
                                            includes the target date and title of the
                                            official responsible for amending the
                                            Articles of Incorporation of the Government
                                            Business Development Corporation to
                                            create a Board of Directors separate from
                                            that of the Guam Economic Development
                                            Authority and for appointing new Board
                                            members for the Corporation accordingly.

         C.1             Unresolved.        Reconsider the recommendation, and
                                            provide a response indicating concurrence
                                            or nonconcurrence. If concurrence is
                                            indicated, provide an action plan that
                                            includes the target date and title of the
                                            official responsible for providing financial
                                            analysis training to loan officers and
                                            developing procedures for referring
                                            businesses that have financial difficulties for
                                            management assistance.

         C.2             Management         Provide an action plan that includes the
                         concurs;           target date and title of the official
                         additional         responsible for developing and
                         information        implementing policy guidelines that include
                         requested.         time frames for taking legal action against
                                            delinquent loan referrals.




                                       58
                                                                             APPENDIX 6
                                                                               Page 4 of 4



Finding/Recommendation
       Reference           Status                          Action Required

         C.3             Unresolved.        Reconsider the recommendation, and
                                            provide a response indicating concurrence
                                            or nonconcurrence. If concurrence is
                                            indicated, provide an action plan that
                                            includes the target date and title of the
                                            official responsible for developing and
                                            implementing policies and procedures for
                                            the prompt sale of property upon
                                            foreclosure on delinquent loans unless
                                            specific written justification is given by the
                                            Board to delay such sale.




                                       59
Mission Statement
The Office of Inspector General conducts and supervises audits
and investigations of Department of the Interior and insular area
government programs and operations to:

! Promote the economy, efficiency, and effectiveness of programs
  and operations and

! Prevent and detect fraud, waste, and abuse in programs and
  operations.




How to Report Fraud, Waste, and Abuse
Fraud, waste, and abuse in Government are the concern of
everyone – Office of Inspector General staff, Departmental
employees, and the general public. We actively solicit allegations
of any inefficient and wasteful practices, fraud, and abuse related
to Departmental or insular area programs and operations. You can
report allegations to us by:

Mail:         U.S. Department of the Interior
              Office of Inspector General
              Mail Stop 5341-MIB
              1849 C Street, NW
              Washington, DC 20240

Phone:        24-Hour Toll Free                     800-424-5081

              Washington Metro Area                 202-208-5300
              Hearing Impaired                      202-208-2420
              Fax                                   202-208-6023

              Caribbean Regional Office             340-774-8300
              Pacific Field Office                  671-647-6060

Internet:     www.oig.doi.gov/hotline_form.html
